KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

October 28, 2019

BY MESSENGER AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Seila Law LLC v. Consumer Financial Protection Bureau, No. 19-7

Dear Mr. Harris:
I represent petitioner in the above-captioned matter. I am writing on behalf
of all parties to request extensions of time for filing the merits briefs and joint
appendix in this case, as follows:
Brief for the petitioner and joint appendix:
Brief for the CFPB:
Brief for Court-appointed amicus:

December 9, 2019
December 9, 2019
January 15, 2020

All parties have agreed to the foregoing schedule, which would enable this case to be
heard during the Court’s February 2020 sitting. Should you need any additional
information, please do not hesitate to let me know.
Yours sincerely,
Kannon K. Shanmugam
cc:

Noel J. Francisco, Esq. (by U.S. mail)
Paul D. Clement, Esq. (by U.S. mail)

